Audit of Regional Mission for Ukraine, Belarus
and Moldova’s Monitoring of American
International Health Alliance’s Performance in
Ukraine
B-121-02-003-P
July 23, 2002




                     Budapest
USAID
OFFICE OF INSPECTOR GENERAL
Audit of USAID Regional Mission for Ukraine, Belarus and
Moldova’s Monitoring of American International Health
Alliance’s Performance in Ukraine

Audit Report No. B-121-02-003-P

July 23, 2002




         U.S. Agency for International Development
                    Budapest, Hungary
 U.S. AGENCY FOR
  INTERNATIONAL
   DEVELOPMENT

RIG/Budapest


July 23, 2002

MEMORANDUM
FOR:            USAID Regional Mission for Ukraine, Belarus and Moldova,
                Mission Director, Christopher D. Crowley

FROM:           Director of Audit Operations, RIG/Budapest,
                Nathan S. Lokos

SUBJECT:        Audit of USAID Regional Mission for Ukraine, Belarus and
                Moldova’s Monitoring of American International Health
                Alliance’s Performance in Ukraine
                (Report No. B-121-02-003-P)

This is our final report on the subject audit. In preparing the report, we
considered your comments on the draft report and included them in their
entirety in Appendix II.

This audit was designed to test USAID Regional Mission for Ukraine, Belarus
and Moldova’s (USAID/Ukraine or Mission) monitoring of American
International Health Alliance’s (AIHA) Performance in Ukraine. We found
that USAID/Ukraine was generally monitoring AIHA’s performance;
however, we also identified monitoring and reporting aspects that can be
improved. Therefore, this report contains three recommendations for your
action.

We consider that management decisions have been made on all three
recommendations, but final action is pending for Recommendation Numbers 1
and 2. Recommendation Number 1 may be closed when AIHA’s monitoring
and evaluation plan is approved by the Mission and Recommendation Number
2 may be closed when the Mission’s annual risk assessment based field site
visit plan has been completed. Recommendation Number 3 is closed upon
issuance of the report. Please advise the Bureau for Management, Office of
Management Planning and Innovation, Management and Innovation Control
Division (M/MPI/MIC) when final action is complete.


                                                            Page 1 of 20
I want to express my sincere appreciation for the cooperation and courtesy
extended to my staff during this audit.




                                                          Page 2 of 20
Map of Ukraine showing cities with American International Health Alliance NIS Partnership
Clinics Visited by OIG Audit Team. The cities visited are: Uzhgorod, Vleyky Berezny, L’Viv,
Kyiv, Kharkiv and Donetsk. The American International Health Alliance NIS Partnership is
also associated with clinics in Odessa, however these clinics were not visited by the OIG Audit
Team.




                                                                           Page 3 of 20
Table of   Summary of Results                                                     5
Contents   Background                                                             5

           Audit Objective                                                        6

           Audit Findings                                                         6

                  Did the USAID Regional Mission for Ukraine,
                  Belarus and Moldova monitor American
                  International Health Alliance’s performance to
                  ensure that intended results were achieved in
                  Ukraine?

                         USAID/Ukraine Needs to Obtain and Approve
                         AIHA’s Monitoring and Evaluation Plan                    8

                         USAID/Ukraine Needs to Assess and Plan for
                         Future Performance Monitoring Site Visits                9

                         USAID/Ukraine Needs to Document and Review
                         Its Performance Reporting                            13

           Management Comments and Our Evaluation                             15

           Appendix I - Scope and Methodology                                 16

           Appendix II - Management Comments                                  18




                                                                   Page 4 of 20
Summary of   This audit was designed to assess USAID Regional Mission for Ukraine, Belarus
Results      and Moldova’s (USAID/Ukraine or Mission) monitoring of American
             International Health Alliance’s (AIHA) performance in Ukraine.

             We found that USAID/Ukraine was generally monitoring AIHA’s performance.
             Moreover, we also determined that Primary Health Care Clinics and Women’s
             Wellness Centers opened through AIHA and USAID/Ukraine cooperation were
             in existence, operating as reported, staffed by enthusiastic well trained Ukrainian
             health professionals and using USAID supplied equipment (see page 5).
             However, we did determine that USAID/Ukraine should strengthen its
             monitoring by: obtaining and approving AIHA’s monitoring and evaluation
             plan (see pages 7-8), assessing and planning for future performance monitoring
             site visits (see pages 8-12) and better documenting and reviewing its
             performance reporting (see pages 12-14).



Background   The U.S. Agency for International Development (USAID) conducts assistance
             programs around the world. In order to implement these programs, USAID
             relies on the services of large institutional partners (grantees, awardees or
             contractors). Often times, the same partner can be found to be implementing
             simultaneous programs in several countries within the same USAID
             geographical region. One such partner is the American International Health
             Alliance (AIHA). Since 1992, AIHA and USAID have collaborated in a
             public-private partnership between American health care providers, educators
             and leaders to improve health care services in 21 nations of Central and
             Eastern Europe (CEE) and the New Independent States of the former Soviet
             Union (NIS).

             On September 30, 1998 USAID awarded an unfunded basic agreement to
             AIHA. USAID subsequently funded six sub-agreements awarded to AIHA
             under that basic agreement. One of these sub-agreements (Cooperative
             Agreement No. EE-A-00-98-00014-00) awarded $15.6 million to AIHA to
             implement the U.S./NIS Health Partnership Program in West NIS (Ukraine,
             Belarus, and Moldova). USAID obligated $12.6 million of this amount to
             support AIHA’s activities in Ukraine.

             AIHA’s partnerships are voluntary, community based partnerships in which
             U.S. based community health related institutions are paired with similar
             institutions in a community in the NIS or CEE to further USAID strategic
             objectives. AIHA’s NIS Health Partnership Program in Ukraine is designed
             to support Ukraine’s effort to reform its healthcare system by shifting toward
             preventive care and away from hospital-based specialized care. The
             Partnership Program is helping Ukraine make the switch by supporting clinics
             with equipment, training, and technical assistance. As of September 2001,
             AIHA has established six partnerships in Ukraine associated with 12 clinics—



                                                                         Page 5 of 20
                  ten primary care clinics and two women’s wellness centers in six
                  oblasts1─Donetsk, Kharkiv, Kyiv, L’viv, Odessa, and Uzhgorod.



Audit Objective   As part of its Fiscal Year 2002 Audit Plan, the USAID Office of Inspector
                  General (OIG) included a series of audits examining USAID’s monitoring of a
                  large institutional partner implementing USAID funded activities in several
                  countries within the Europe and Eurasia Region. The American International
                  Health Alliance (AIHA) met this criteria. Accordingly, USAID/Ukraine’s
                  monitoring of AIHA’s USAID funded activities was selected for audit. The
                  OIG performed this audit to answer the following question:

                               Did the USAID Regional Mission for Ukraine, Belarus
                               and Moldova monitor American International Health
                               Alliance’s performance to ensure that intended results
                               were achieved in Ukraine?

                  The scope and methodology of this audit are detailed in Appendix I.



Audit Findings    Did the USAID Regional Mission for Ukraine, Belarus and Moldova
                  monitor American International Health Alliance’s performance to ensure
                  that intended results were achieved in Ukraine?

                  We found that USAID/Ukraine did generally monitor AIHA’s performance to
                  ensure that intended results were achieved in Ukraine. However,
                  USAID/Ukraine needs to strengthen certain procedures regarding (1) the
                  monitoring and evaluation plan, (2) assessing and planning future site visits, and
                  (3) documenting and reviewing performance reporting. Nevertheless,
                  USAID/Ukraine reviewed and approved health partnership workplans, the
                  designation of key positions and key personnel. The Mission also concurred
                  with all the underlying health partnerships and participated in AIHA’s health
                  clinic openings and conferences. In our opinion, this monitoring helped to
                  ensure that intended results were being achieved.

                  In conducting the audit, we tested activities at 6 of the 12 medical clinics
                  associated with the cooperative agreement between AIHA and USAID/Ukraine.
                  During these site visits, we determined that the Primary Health Care Clinics and
                  Women’s Wellness Centers opened through AIHA and USAID/Ukraine
                  cooperation were in existence, operating as reported and staffed by enthusiastic,
                  well trained Ukrainian health professionals (see following Photographs 1 and 2).
                  Moreover, several of the clinics were using USAID-supported equipment.


                  1
                      An “oblast” is an administrative territorial division within Ukraine.




                                                                                              Page 6 of 20
Photograph of staff at Uzhgorod Women’s Wellness Center enthusiastically display
an anti-smoking poster. (Photo by RIG/Budapest - January 16, 2002).




Photograph 1: Staff at Uzhgorod Women’s Wellness Center enthusiastically display an
anti-smoking poster. (Photo by RIG/Budapest - January 16, 2002)




Photograph of Family Medicine Clinic’s Healthy Life Style Learning
Center in Velyky Berezny. (Photo by RIG/Budapest - January 17, 2002)




Photograph 2: Velyky Berezny Family Medicine Clinic Healthy Life Style Learning
Center. (Photo by RIG/Budapest - January 17, 2002)




                                                                 Page 7 of 20
While the Mission’s monitoring of AIHA’s activities was generally effective, we
did identify certain monitoring and reporting elements that could be
strengthened. The following sections discuss these issues in detail.

USAID/Ukraine Needs to Obtain and Approve
AIHA’s Monitoring and Evaluation Plan

USAID planning guidance, ADS Section 201.3.4.13 states, that managing
performance requires access to useful and timely information. USAID/Ukraine
receives a variety of useful performance information from AIHA; information
that we believe is generally sufficient to properly manage the performance of
this activity. However, USAID/Ukraine has not yet received and approved
AIHA’s final monitoring and evaluation plan. According to the cooperative
agreement, AIHA’s monitoring and evaluation plans must be approved by
USAID. Nevertheless, at this time—three years into this activity—no formal
approved monitoring and evaluation plan exits.

The absence of such a plan is attributable to a lack of communication, follow-
through and a recent change in Cognizant Technical Officers for AIHA’s
cooperative agreement. Specifically, AIHA submitted proposed performance
indicators for a monitoring and evaluation plan that were accepted in writing by
a Mission official, but subsequent to that approval, both parties continued to state
in internal and external documents that agreed upon performance indicators did
not yet exist.

As stated above, we believe the Mission is generally receiving much of the
information necessary to properly manage this activity. However, in the absence
of a final approved monitoring and evaluation plan defining AIHA’s reporting
requirements, AIHA is not reporting some performance information that could
benefit the Mission.

For example, one of the new performance indicators in USAID/Ukraine’s
FY2002 Performance Monitoring Plan (PMP) is the reduction in “percent of
cases referred to Specialists.” This information is not provided in AIHA’s
quarterly report. However, during RIG/Budapest’s field visits, most of the clinic
directors, when asked to cite their best measure of success, immediately stated
the reduction of patient referrals and cited statistics supporting this measure.
Therefore, the AIHA partnership clinics track this data, USAID is using this
performance indicator in its PMP and yet AIHA has not been reporting this data
to the Mission in their quarterly reports.

AIHA’s cooperative agreement—EE-A-00-98-00014-00—requires that a
monitoring and evaluation plan be approved by USAID. Furthermore, both
AIHA and USAID/Ukraine have expressed their desire to develop and approve a
monitoring and evaluation plan. Although the agreement was signed on
September 30, 1998, a final monitoring and evaluation plan has not been
approved. In addition, the AIHA Partnership clinics are not reporting all


                                                            Page 8 of 20
relevant data. To correct these monitoring and reporting weaknesses we propose
the following recommendation.

        Recommendation No. 1: We recommend that
        USAID/Ukraine require that American International Health
        Alliance submit a monitoring and evaluation plan as soon as
        possible. This plan should be developed from the Mission’s
        finalized Performance Monitoring Plan and should
        incorporate agreed upon performance measures.


USAID/Ukraine Needs to Assess and Plan for Future
Performance Monitoring Site Visits

USAID and Mission guidance both require that USAID staff make field site
visits to Mission activities. However, while USAID/Ukraine representatives did
attend the official opening of many of the AIHA clinics in 2000 and early 2001,
Mission staff did not make subsequent field site visits to most of those locations.
The Mission’s Cognizant Technical Officer (CTO) indicated that staff and time
constraints would make it difficult to perform all desirable site visits. Without
such site visits, USAID/Ukraine faces greater risk to the success of its activities
because it must rely on development partners for more and more performance
results reporting with less ability to verify and validate the accuracy of that data.
Moreover, the Mission also loses the opportunity to better understand its
partner’s performance and to revalidate customer needs.

Both USAID guidance and USAID/Ukraine’s internal guidance acknowledge
the importance of site visits in the monitoring of USAID activities. For
example, USAID’s Automated Directives System (ADS) Section E303.5.13
states, that site visits are an important part of effective contract and grant
management (award management). Similarly, ADS Section 303.3.4.c indicates
that the responsibilities of the Cognizant Technical Officer include monitoring
and evaluating the recipient and the recipient’s performance by maintaining
contact through site visits.

In addition, USAID/Ukraine Mission Order 0100.1, Semestral Activity Reports,
requires that activity managers visit project sites no less than once every six
months. According to this Mission Order, during these visits, activity managers
are to confirm the accuracy of operations information, gain a better
understanding of the partner’s performance, and revalidate the needs and
expectations of customers.

AIHA’s cooperative agreement is being implemented in Ukraine through six
underlying partnership agreements associated with 12 medical clinics throughout
Ukraine. Sponsored clinics exist in Donetsk, Kharkiv, Kyiv, L’viv, Odessa,
Uzhgorod, and Velyky Berezny as well as other related clinics in rural areas.
We found that while USAID/Ukraine representatives did attend the official


                                                              Page 9 of 20
opening of many of these clinics in 2000 and early 2001, Mission staff did not
make subsequent field site visits to most of those locations. It should also be
noted that USAID/Ukraine staff did join RIG/Budapest auditors on seven recent
visits (including Kyiv and far-flung sites in L’viv, Uzhgorod, Donetsk and
Kharkiv).

We believe such site visits to ongoing activities are important, because they—
among other things—provide the opportunity to observe partner performance,
validate reported information and determine that USAID-financed commodities
and equipment are being properly used. For example, during our field site visits,
we noted the following.

    •    At each site visited, OIG auditors traced performance indicator results
         data reported in the AIHA quarterly reports, which are delivered to
         USAID/Ukraine, to source documentation. These on-site tests revealed
         that AIHA had mistakenly reported only September 2001 data as
         quarterly data for most of its clinics—thus understating performance.
         We also found that one clinic inexplicably reported two months data as
         quarterly totals, while some Women Wellness Centers correctly reported
         quarterly results. Finally this review highlighted one instance where
         AIHA omitted—without explanation—the whole country program in
         Moldova, which had previously been reported. This illustrates the
         importance of site visits in testing the validity and reliability of results
         data reported to USAID.2

    •    During these site visits, OIG auditors also inspected equipment approved
         by USAID. However, one piece of equipment, a “radiometer” valued at
         approximately $25,000, or 32% of total clinic’s equipment inventory
         value, was not being used as intended (Photograph 3). This expensive
         piece of equipment has been in Ukraine for one year, but was not yet
         being used. Although the Clinic Director stated that this machine—used
         to test blood for various substances including high levels of gases
         associated with mining—could be a valuable asset, he is not sure if the
         clinic needs it. Moreover, he stated that the chemicals needed to run the
         test (reagents) are expensive and that the machine would only be used
         sporadically.3

2
  During the audit fieldwork, AIHA promptly responded to OIG auditors’ concerns regarding
the quality and accuracy of data being reported by AIHA. AIHA immediately instituted a
review of their process for collecting and preparing the data for their quarterly reports. In
addition, AIHA conducted internal training in performance monitoring and reporting in the
NIS/Caucasus regions. Nevertheless, this situation illustrates the importance of Mission staff
testing the validity of data reported during site visits. Without this testing, these reporting
errors could have gone undetected and been used to make future programming decisions.

3
  After audit fieldwork had been completed, USAID/Ukraine’s Cognizant Technical Officer
(CTO) reported that the AIHA partnership now plans for this equipment to be better utilized
by serving four other hospitals in the Donetsk area. Also, a one year’s supply of reagents has
been negotiated with the partners and any necessary future training at the new sites can be


                                                                    Page 10 of 20
           Photograph of an idle, inoperative equipment at Donetsk Miner’s
           Health Clinic. (Photo by RIG/Budapest - January 23, 2002)




        Photograph 3: Idle, Inoperative, Equipment at Donetsk Miner’s Health Clinic.
        (Photo by RIG/Budapest - January 23, 2002)


Our site visits also revealed many positive aspects of the AIHA partnership
programs including the verification of the following: functioning clinics, staffing
by enthusiastic doctors and nurses who have benefited from AIHA training and
support, and the utilization USAID supplied equipment. These positive results
are equally important for USAID/Ukraine to glean from site visits as they can
assist USAID managers in making better informed decisions concerning the
allocation of future resources. Photographs 4 and 5 on the following page
illustrate how the Miner’s Health Clinic in Donetsk benefited from
participating in the AIHA Donetsk—Pittsburg Partnership through the
renovation of examination rooms.

In addressing the issue of site visits, the CTO stated that there is an informal
policy to visit at least one pilot site per month, which they try to follow.
However, the CTO also stated while she frequently met with AIHA’s local staff,
it would be difficult, with limited staff and time, to visit all individual sites. We
agree that such staff and time constraints make it more difficult to perform
requisite field site visits and believe these constraints resulted in Mission staff
making insufficient site visits to ongoing AIHA-related activities.

In our opinion, given such constraints, an efficient and effective way of
programming field site visits for the entire Mission would be to conduct such
visits based on the risks posed by its activities (including, of course, AIHA). In

provided by the manufacturer’s representative in Donetsk.


                                                            Page 11 of 20
doing this, the Mission would assess the risk that it faces in both various
elements of a development partner’s performance (e.g. reporting, managing of
commodities, coordination with host country partners, etc.) and various activity
locations. Mission staff would then program a number of field site visits, with
the majority of those visits focusing on higher risk functions and locations.




Photograph of an old fashioned examination area with old equipment
separated by curtains at the Donetsk Miner’s Clinic – before renovation.
(Photo by RIG/Budapest - January 23, 2002)




Photograph 4: Donetsk Miner's Health Clinic Examination Room Before Renovation.
(Photo by RIG/Budapest - January 23, 2002)




                                                          Page 12 of 20
Photograph of the Donetsk Miner’s Health Clinic examination room
after renovation. (Photo by RIG/Budapest - January 23, 2002)




Photograph 5: Donetsk Miner's Health Clinic Examination Room After Renovation.
(Photo by RIG/Budapest - January 23, 2002)


Without performing necessary site visits, USAID/Ukraine has to rely on
development partners for more and more performance results reporting with less
ability to verify and validate the accuracy of the data. In addition, the mission
loses the opportunity to better understand the partner’s performance and to
revalidate customer expectations. We believe both of these factors contribute to
the increased risk facing the Mission concerning the success of its activities.
Finally, as illustrated above, testing the accuracy of data at the source can reveal
material errors and better inform USAID/Ukraine and stakeholders about the
quality of data, and problems in the field (such as with the previously mentioned
radiometer). Accordingly, we are making the following recommendation.

        Recommendation No 2: We recommend that
        USAID/Ukraine develop a field site visit plan for its activities
        based on a risk assessment of its portfolio.


USAID/Ukraine Needs to Document and Review
Its Performance Reporting

USAID guidance stresses the importance of high quality, accurate and reliable
results reporting information in order to properly measure results. Additionally,
the U. S. General Accounting Office’s (GAO) Standards for Internal Controls in
the Federal Government state that all transactions and significant events need to
be clearly documented, and that the documentation should be readily available
for examination. We determined that the Mission reported erroneous
information in its most recent Results Review and Resource Request (R4)—now


                                                            Page 13 of 20
the Annual Report—to USAID/Washington. Moreover, the Mission did not
have documentation supporting some of the information reported. As a result,
USAID managers did not have accurate information concerning the performance
of AIHA’s activity; which could lead to improper management decisions. These
errors, which were introduced during the editing of the R4, were not corrected
due to an insufficient review of the final R4 before issuance.

USAID’s ADS and Performance Monitoring and Evaluation TIPS (TIPS)
guidance stresses the importance of high quality, accurate and reliable results
reporting information in order to properly measure results. Specifically, ADS
section 203.3.6.1 states, “A high quality narrative report is important to
complement information in the performance data tables.” Further, TIPS 12
(Guidelines for Indicator and Data Quality) states, that USAID’s results-oriented
management approach relies on both field and Washington managers basing
their decisions on performance information and that sound decisions require
accurate and reliable information.

Finally, the GAO Standards for Internal Controls in the Federal Government
state that all transactions and significant events need to be clearly documented,
and that the documentation should be readily available for examination.

We determined that the Mission reported erroneous information to
USAID/Washington. Specifically, USAID/Ukraine’s most recent R4, dated
April 2001, states, “The AIHA Health Partnerships Program has opened 46
model clinics, each one beta testing innovative approaches to health care
delivery.” A performance data table with the unit of measure: “cumulative
number of primary care/family medicine clinics,” also lists the 46-clinic figure.
However, the CTO specifically stated that the six AIHA partnerships in Ukraine
had resulted in the opening of 10 clinics at the time the performance data was
reported, while the 46 clinics represented total clinics—including non-AIHA
clinics—in the six oblasts where USAID/AIHA partnerships are operating.

In addition, the CTO provided us with her initial text submission for the R4
narrative that clearly attributes the 46 clinics to Government and the private
sector, not AIHA. The CTO stated that the professional editing of the narrative,
without a final review by the appropriate USAID/Ukraine staff, changed the
meaning of the statement from AIHA being a “catalyst” for 46 clinic openings in
pilot areas to AIHA “opening” 46 clinics. The narrative in the R4 stating that
AIHA opened 46 clinics is incorrect and unsupported—and overstated by 4.6
times or 460%.

In addition to the above, we also found that the CTO files did not have
documentation supporting the total number of 46 clinics and the CTO could not
support the number without contacting the Ukrainian Ministry of Health and
other outside sources. In accordance with the previously mentioned internal
control standard concerning documentation, we believe the CTO files should
have contained documents supporting the figures reported to


                                                           Page 14 of 20
                 USAID/Washington, Congress and other stakeholders.

                 Mission staff noted that editing of the R4 (Annual Report) sometimes
                 unintentionally changes meanings and that the narrative portion is especially
                 susceptible to editorial changes. While editing may have changed the wording
                 and meaning of certain sentences in the R4, the cause of reporting of incorrect
                 data and a lack of support is insufficient review by the Mission and a failure to
                 keep supporting documentation for information reported to high-level Mission
                 and USAID decision makers, as well as Congress and other stakeholders.
                 Therefore, USAID managers and other stakeholders had unsupported erroneous
                 program results data that could lead to the improper management decisions.
                 Accordingly, we are making the following recommendation.


                        Recommendation No. 3: We recommend that
                        USAID/Ukraine issue guidance for annual performance
                        results reporting that: 1) modifies its procedures so that the
                        staff most familiar with the activities reported, carefully
                        review, clear and approve the final “edited” Annual Report
                        sections under their responsibility and 2) requires that
                        activity managers maintain documents supporting all figures
                        reported in the annual report (previously the R4) to
                        USAID/Washington.




Management       USAID Regional Mission for Ukraine, Belarus and Moldova officials agreed
Comments and     with the contents of the report and their comments are included as Appendix II
Our Evaluation   to this report.




                                                                           Page 15 of 20
                                                                         Appendix I


Scope and     Scope
Methodology
              The Office of the Regional Inspector General/Budapest conducted this audit, in
              accordance with generally accepted government auditing standards, to determine
              if USAID Regional Mission for Ukraine, Belarus and Moldova
              (USAID/Ukraine) monitored American International Health Alliance’s (AIHA)
              performance in Ukraine. Our audit was limited to evaluating USAID/Ukraine’s
              monitoring of AIHA’s performance in Ukraine under cooperative agreement
              numbers EE-A-00-98-00033-00 and EE-A-00-98-00014-00 from September 30,
              1998 through September 30, 2001. Our audit did not include an assessment of
              AIHA activities in Belarus and Moldova. As of September 28, 2001
              USAID/Ukraine obligated $12.6 million and expended $12.4 million in support
              for AIHA activities in Ukraine. The audit was conducted at USAID/Ukraine
              and AIHA offices in Kyiv, Ukraine, and at six AIHA partnership clinics in five
              oblasts—Donetsk, Kharkiv, Kyiv, L’viv and Uzhgorod, Ukraine from
              November 26, 2001 through February 1, 2002.

              Methodology

              Specifically, the audit objective was to determine if USAID/Ukraine monitored
              AIHA’s performance to ensure that intended results were achieved in Ukraine.
              To do this we reviewed the following documents and reports: (1)
              USAID/Ukraine’s strategic planning, program implementation and financial
              documents; (2) USAID/Ukraine’s guidance and internal control assessments
              required under the Federal Managers’ Financial Integrity Act (FMFIA); (3)
              external evaluations and assessments of USAID/Ukraine’s program activities;
              and (4) progress and activity reports prepared by USAID/Ukraine and AIHA
              officials.

              We also obtained and analyzed criteria applicable to this audit contained in the
              following documents: (1) ADS Chapters 201, 202, and 203; (2) project
              implementation letters; (3) cooperative agreements EE-A-00-98-00033-00 and
              EE-A-00-98-00014-00, as amended; (4) USAID/Ukraine Mission Orders; (5)
              and other applicable guidance.

              Finally, we interviewed key officials at USAID/Ukraine, AIHA, and intended
              beneficiaries. We also conducted field trips to selected activity sites in
              Ukraine to observe project implementation, inspect USAID–funded property
              and equipment, verify reported information, and assess the effectiveness of
              USAID/Ukraine and AIHA monitoring of performance and progress towards
              accomplishment of program results and strategic objectives. The six AIHA
              Partnership activities visited were selected judgmentally.



                                                                      Page 16 of 20
                                                                                                    Appendix II


Management
Comments


                          United States Agency For International Development
                                      Regional Mission for Ukraine, Belarus and Moldova



 May 31,2002


 Mr. Nathan Lokos
 Director of Audit Operations
 Office of the Regional Inspector General
 Budapest, Hungary


 Subject: Response to Draft Report on the Regional Mission's Monitoring of AIHA Performance in Ukraine

 Dear Mr. Lokos:

 Thank you for allowing us the opportunity to review the draft report and for the professional and cooperative
 way in which the review was conducted. We believe it will assist us to improve our performance.

 We have one comment on the wording used in the report. In the middle of the first paragraph under the title,
 "USAID/Ukraine Needs to Assess and Plan for Future Performance Monitoring Site Visits", the report states
 that "The Missions Cognizant Technical Officer (CTO) indicated that staff and time constraints would make it
 difficult to perform the necessary site visits". We think this overstates what the CTO meant. At least the Mission's
 position is that there are, no doubt, time and manpower constraints on performing all "possible" or maybe
 "desirable" site visits, but that we must and do make time to do "necessary" site visits.

 Other comments and a summary of actions taken on the three recommendations in the draft report are as follows:

 Recommendation No. 1
 As the draft audit report says, we have an agreed upon monitoring and evaluation plan, but there appeared to be
 some confusion in implementing this plan. However, in order to fully address this recommendation, we have had
 discussions with AIHA who will submit a new monitoring and evaluation plan shortly. As it will, in large part, repeat
 items from the existing plan, we do not foresee any problem in our prompt agreement. It seems appropriate to
 revisit the plan at this time and we welcome the opportunity to do so.




                          Kyiv: Nyzhny Val 19; 04071 Ukraine, Phone:(380) 44-462-5678; Fax: 462-5834
                   Minsk: 46 Starovilenskaya Str., 220002, Belarus. Phone:(375) 17-210-12-83; Fax: 211-3032
             Chisinau: 57/1, Banulescu Bodoni; ASITO 5th Fl.; 2005, Moldova. Phone: (373) 2-237-460; Fax: 237-277



                                                                                                 Page 17 of 20
Recommendation No. 2
We have issued a Mission Notice, a copy of which is attached, that, inter alia, sets forth procedures for developing
a risk assessment based field site visit plan for the Mission. We believe this meets the intent of the recommendation.


Recommendation No. 3
The Mission Notice also states that Mission policy is that the technical office drafting part or all of a key
Mission program document should clear the any substantive edits made by other offices before final
submission of the document. The same Mission Notice reiterates the importance of documenting and maintaining
evidence to support any data used as a performance indicator. We believe this also addresses the problem
mentioned by the recommendation.

Based on the above, we believe that the Regional Mission has made management decisions on
recommendations number 1-3, and have taken meaningful action to close numbers 2 and 3.

                                                    Sincerely,


                                                    /s/
                                                    Christopher D. Crowley Mission Director




                                                                                           Page 18 of 20
                                         DRAFT MISSION NOTICE



SUBJECT: 1) Field Site Visit Plans; 2) Clearance of Drafts of Key Program Documents; and 3)
Maintenance of Documents Supporting Performance Indicators


The following Mission guidance is being issued to address three separate weaknesses identified by the RIG
auditors in a recent report:

1) Field Site Visit Plans

SO/Project monitoring plans should, if they do not already do so, include proposed visits to field sites where
activities are being performed. While some site visits will undoubtedly be made on an ad hoc basis to
address specific problems or because “targets of opportunity” present themselves, most field site visits are
generally planned in advance. To maximize our limited human resources, we should concentrate our efforts
on the most vulnerable, highest risk, areas in our portfolios to assure the most effective use of limited staff
time. This risk assessment should take multiple factors into account, but a few things that may contribute to
high risk are: a major commitment of resources; a particularly difficult task to be accomplished because of
economic, social or political conditions; a lack of timely reporting by the implementer; allegations of
unethical conduct or conflict of interest; or past negative experience with the contractor/grantee or
difficulties at a particular site.

Therefore, every year, each technical office, in coordination with the SO teams, should assess the relative
risk and vulnerability of each project site in their portfolio. They should plan site visits which can
reasonably be performed during the upcoming year and which, in the judgment of the technical office,
maximizes visits to the most vulnerable sites. Based on this assessment, they should summarize, in writing,
their site visit plan. While the CTO will be the person primarily responsible for performing field visits,
appropriate participation should be sought from other management, technical, and support staff of the
Mission.

Such plans should be viewed as tools for budgeting time in the most efficient way and ought to have a
degree of flexibility. Plans that are followed most of the time are probably a better measure of effective
management than plans that are followed without deviation.

2) Clearance of Drafts of Key Program Documents

Certain key Mission program documents, such as the Annual Report, Congressional Notifications, the
Mission Strategy Statement, and Economic Committee Papers (Committee on Sustainable Economic
Cooperation), etc., are often drafted by a technical office and then reviewed and edited by the PCS office
and Mission management. For documents that are primarily technical, or whenever changes have been
made in a program document to the wording and reporting of data supplied by a technical office, the Office
Director of the drafting office, a designee, should clear the revised version before it is re-submitted to PCS.
The purpose is to prevent inadvertent changes in substantive meaning which might creep in when edits are


                                                                                        Page 19 of 20
made by those less familiar with the subject matter and to assure the validity and accuracy of the document
submitted by PCS to the Director’s Office. Of course, if consensus amongst drafters and reviewers cannot
be reached, the final decision on what to include will be made by Mission management.

3)   Maintenance of Documents Supporting Performance Indicators

CTOs are reminded that data used as performance indicators in the Annual Report or similar documents are
to be supported by documentary evidence. This means that the CTO has a record of the source of the data in
an activity file which fully supports the information reported. If the data is reported by a contractor or
grantee, part of a monitoring plan should include quality assurance of the validity of the data. For example,
if a statistic is reported by a particular site, part of the routine site visit should include a selective test of the
quality of the data that was used by the grantee to support the statistic reported. When such tests are
performed, a record of the test should be made part of the official activity file.




                                                                                             Page 20 of 20
